     Department of Homeland Security





  FEMA Public Assistance Grant Funds Awarded to
 Puerto Rico Highway and Transportation Authority –
              Flood Events of October 2005




DA-12-07                                     February 2012

                                                                             Office ofInspector General

                                                                             U.S. Department of Homeland Security
                                                                             Washington, DC 20528




                                                                             Homeland
                                                                             Security

                                                     FEB 1 6 2012
MEMORANDUM FOR:                        Lynn G. Canton
                                       Regional Administrator, Region II
                                       Federal Emergency Management Agency

FROM:                                  D. Michael Beard(..> {j        J) l1!)lt>///
                                       Assistant Inspector Ge;=al        Vi
                                       Office of Emergency.. .Management Oversight

SUBJECT:                               FEMA Public Assistance Grant Funds Awarded to Puerto Rico
                                       Highway and Transportation Authority - Flood Events ofOctober 2005
                                       FEMA Disaster Number 1613-DR-PR
                                       Audit Report Number DA-12-07

We audited public assistance funds awarded to the Puerto Rico Highway and Transportation Authority
(Authority) (FIPS Code 000-UA8CE-00). Our audit objective was to determine whether the Authority
accounted for and expended Federal Emergency Management Agency (FEMA) grant funds according to
federal regulations and FEMA guidelines.

As of March 21, 2011, the Authority had received a public assistance award of $1.2 million from the
Puerto Rico Office of Management and Budget (Commonwealth), a FEMA grantee, for damages
resulting from floods, mudslides, and landslides that occurred in October 2005. The award provided
75% FEMA funding for debris removal activities, emergency protective measures, and repair of roads
and bridges. The award included three large and two small projects. 1

Our audit focused on the $1.2 million awarded to the Authority (see Exhibit, Schedule of Projects
Audited). Our review of small projects was limited to duplication of benefits. The audit covered the
period from October 9, 2005, to March 21,2011, during which the Authority received $787,134 of
FEMA funds. At the time of our audit, the Authority had not completed all work under the projects.

We conducted this performance audit pursuant to the Inspector General Act of 1978, as amended, and
according to generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based upon our audit objective. We


1   Federal regulations in effect at the time of the disaster set the large project threshold at $54,100.
conducted this audit applying the statutes, regulations, and FEMA policies and guidelines in effect at the
time of the disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed Authority,
Commonwealth, and FEMA personnel; reviewed the Authority’s procurement policies and procedures;
reviewed applicable federal regulations and FEMA guidelines; and performed other procedures
considered necessary to accomplish our audit objective. We did not assess the adequacy of the
Authority’s internal controls applicable to its grant activities because it was not necessary to accomplish
our objective. However, we did gain an understanding of the Authority’s method of accounting for
disaster-related costs and its policies and procedures for administering the activities provided for under
the FEMA award.


                                         RESULTS OF AUDIT

The Authority generally accounted for and expended FEMA funds according to federal regulations and
FEMA guidelines. However, we identified $64,340 of unneeded project funding that FEMA should
deobligate and put to better use. We also determined that the Authority’s claim included $62,963 of
questionable costs consisting of $45,652 of duplicate benefits, $11,744 of excessive contract charges,
and $5,567 of unsupported charges that FEMA should disallow.

Finding A: Funds Not Needed

The Authority no longer needs $64,340 of FEMA funding obligated under Project 257. FEMA awarded
the Authority $64,340 under the project to make road repairs at kilometer 4.8 in Collores Ward on state
road PR 512. However, the cost of the repairs was funded by the Federal Highway Administration
(Project No. PR 512-(042)). Therefore, FEMA should deobligate the $64,340 of unneeded funds and
put them to better use.

Finding B: Duplication of Benefits

The Authority’s claim included $45,652 for road repairs that were completed with FEMA funding
received by another department. According to Section 312 of the Robert T. Stafford Disaster Relief and
Emergency Assistance Act, as amended, federal disaster assistance may not be duplicated, meaning that
an entity may not receive funds to cover losses that another program, insurance, or any other source
covered.

The Authority received $45,652 of FEMA funds under Project 258 for excavation activities,
construction of a structural retaining wall, repair of a sidewalk, and the replacement of sections of
damaged asphalt at kilometer 5.2 in Collores Ward on state road PR 512. However, these activities were
actually performed under FEMA Project 387 awarded to the Puerto Rico Department of Transportation.
Therefore, we question the $45,652 received by the Authority for such activities.




                                                     2

Finding C: Excessive Contract Charges

The Authority’s claim under debris removal Project 574 included $11,744 of excessive contract charges.
The contractor billed the Authority for 932.50 hours of equipment usage for various pieces of
equipment. However, operator hours billed for use of the equipment totaled only 652 hours. The excess
280.50 hours, totaling $11,744, represents idle time, which is unallowable under federal cost principles
(2 CFR 225, Cost Principles for State, Local and Indian Tribal Governments, Appendix B, Section 21).
We question the $11,390 of excessive equipment charges as identified in table 1.

                                     Table 1: Excessive Equipment Charges
                                              Equipment          Idle Time     Hourly    Idle Time
                   Description       Hrs. Claimed Hrs. Usage       (Hrs.)       Rate      Charges
            Rollo Caterpillar               164.50       108.50       56.00   $ 24.52       $ 1,373
            Bulldozer JD 450                124.00        52.00       72.00      21.87        1,575
            Digger Caterpillar 4x4          181.00       149.00       32.00      13.62          436
            Electric Generator              185.50       161.50       24.00       1.18           28
            Bulldozer Komatsu                67.00        51.00       16.00      78.09        1,249
            Bulldozer Komatsu                23.00         0.00       23.00     126.55        2,911
            Excavator Kobelco                20.00        10.00       10.00      80.60          806
            Excavator Linkbelt              167.50       120.00       47.50      70.86        3,366
                      Total                 932.50       652.00      280.50                $ 11,744



Finding D: Supporting Documentation

The Authority’s claim under Project 563 included $5,567 of contract charges that were not supported by
adequate documentation. Cost Principles at 2 CFR 225, Cost Principles for State, Local, and Indian
Tribal Governments, Appendix A, Section C.1.j, state that a cost must be adequately documented to be
allowable under federal awards. The Authority claimed $781,195 to construct a temporary access bridge
for disaster survivors prevented access to/from their homes by landslides and flooding at kilometer 11.2
in the Municipality of Juana Diaz on state road PR 511. However, the Authority had documentation
(contracts, invoices, and payment documents) to support only $775,628, or $5,567 less than the amount
claimed. We question the $5,567.


                                         RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region II:

   Recommendation #1: Deobligate $64,340 ($48,255 federal share) of unneeded project funding and
   put it to better use (finding A).

   Recommendation #2: Disallow $45,652 ($34,239 federal share) of ineligible costs resulting from a
   duplication of benefits (finding B).

   Recommendation #3: Disallow $11,744 ($8,808 federal share) of ineligible contract charges
   resulting from idle equipment time (finding C).


                                                       3

       Recommendation #4: Disallow $5,567 ($4,175 federal share) of unsupported contract charges
       (finding D).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed the audit results with Authority, Commonwealth, and FEMA officials during our audit.
We also provided a written summary of our findings and recommendations in advance to these officials
and discussed them at the exit conference held on September 30, 2011. Authority officials agreed with
all of the findings.

Within 90 days of the date of this memorandum, please provide our office with a written response that
includes your (1) agreement or disagreement, (2) corrective action plan, and (3) target completion date
for each recommendation. Also, please include responsible parties and any other supporting
documentation necessary to inform us about the current status of the recommendation. Until your
response is received and evaluated, the recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of our
report to appropriate congressional committees with oversight and appropriation responsibility over the
Department of Homeland Security. To promote transparency, this report will be posted to our website,
with the exception of sensitive information identified by your office. Significant contributors to this
report were David Kimble, Adrianne Bryant, and Vilmarie Serrano-Rosario.

Should you have questions concerning this report, please contact me at (202) 254-4100 or David Kimble
at (404) 832-6702.

cc:	      Administrator, FEMA
          Audit Liaison, FEMA Region II
          Audit Liaison, FEMA Caribbean Recovery Office
          Audit Liaison, FEMA HQ (Job Code: GA-11-034)
          Audit Liaison, DHS




                                                    4

                                                                                EXHIBIT

                             Schedule of Projects Audited

                          October 9, 2005, to March 21, 2011

                  Puerto Rico Highway and Transportation Authority

                           FEMA Disaster No. 1613-DR-PR


    Project         Amount         Amount      Funds Put to    Questioned
    Number          Awarded        Claimed      Better Use       Costs          Finding
Large Projects:
      257               $64,340   $        0         $64,340      $         0     A
      563               824,975      781,195               -            5,567     D
      574               219,392      219,733                           11,744     C
    Subtotal         $1,108,707   $1,000,928         $64,340          $17,311
Small Projects:
      258                45,652       45,652               -           45,652     B
      566                15,621       15,621               -                -
    Subtotal            $61,273      $61,273               -          $45,652
     Total           $1,169,980   $1,062,201         $64,340          $62,963




                                         5

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
